                       DEPARTMENT OF HOMELAND SECURITY
                                           Office of Inspector General
                                        Dallas Field Office – Audit Division
                                           3900 Karina Street, Room 224
                                                Denton, Texas 76208

                                                  December 9, 2003

MEMORANDUM

TO:               David I. Maurstad, Regional Director
                  FEMA Region VIII



FROM:             Tonda L. Hadley, Field Office Director

SUBJECT:          University of North Dakota
                  Grand Forks, North Dakota
                  FEMA Disaster Number 1174-DR-ND
                  Public Assistance Identification Number 000-92004
                  Audit Report Number DD-03-04
______________________________________________________________________________________

The Office of Inspector General (OIG) audited public assistance funds awarded to the
University of North Dakota (UND), Grand Forks, North Dakota. The objective of the
audit was to determine whether UND accounted for and expended Federal Emergency
Management Agency (FEMA) funds according to federal regulations and FEMA
guidelines.

UND received an award of $44.1 million1 from the North Dakota Division of Emergency
Management (NDDEM), a FEMA grantee, for damages caused by severe flooding,
severe winter storms, heavy spring rain, rapid snowmelt, high winds, ice jams, and
ground saturation due to high water tables that occurred in February through May 1997.
The award provided 100 percent FEMA funding for emergency work (Categories A and
B) and 90 percent FEMA funding for permanent work (Categories C through G) on 54
large projects and 62 small projects.2 The audit covered the period February 28, 1997, to
June 3, 2002, during which UND claimed $44.1 million and NDDEM disbursed $36.4
million in FEMA funds for direct program costs.

The audit included a review of two large and four small projects totaling $4.2 million (9.5
percent of the total award). The audit scope initially included another large project,
Project 59315, totaling $28.1 million (63.7 percent of the total award). However, the OIG

1
  This amount includes $28.1 million estimated costs for project 59315. The amount could increase or
decrease based on the results of FEMA Region VIII’s closeout review.
2
  Federal regulations in effect at the time of the disaster defined a large project as a project costing $46,000
or more and a small project as one costing less than $46,000.
postponed its audit of this project until 2004 because FEMA Region VIII had not
completed its final closeout review and was reviewing additional costs UND submitted
that were not included in its initial claim for this project. (See Exhibit for projects
audited.)

The audit was performed under the authority of the Inspector General Act of 1978, as
amended, and according to generally accepted government auditing standards. The audit
included tests of UND’s accounting records, a judgmental sample of expenditures, and
other auditing procedures considered necessary under the circumstances.


                                 RESULTS OF AUDIT

For the projects audited, UND generally expended and accounted for FEMA funds
according to federal regulations and FEMA guidelines. However, UND’s claim included
$84,977 in duplicate costs. UND inadvertently claimed these costs twice under Project
57779. Therefore, the OIG questioned duplicate costs of $84,977 ($76,479 FEMA share).



                                RECOMMENDATION

The Office of Inspector General recommended that the FEMA Regional Director, in
coordination with the North Dakota Division of Emergency Management, disallow
$84,977 of questioned costs.


        DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

The OIG discussed the audit results with UND officials, NDDEM officials, and FEMA
officials on November 5, 2003, all of whom agreed with the findings.

Please advise this office by January 8, 2004, of the actions taken or planned to implement
the recommendations, including target completion dates for any planned actions. If you
have questions concerning this report, please contact me at (940) 891-8900. Major
contributors to this report were Chuck Riley, DeAnna Fox, and Jerry Meeker.




                                            2
                                          EXHIBIT


     Schedule of Audited Projects
      University of North Dakota
     FEMA Disaster Number 1174-DR-ND


  Project      Amount        Amount
  Number       Claimed      Questioned

Large
 57779         $3,684,835       $84,977
 41863            367,228             0
Small
 6149              37,318             0
 84573             37,218             0
 57711             32,390             0
 6476              29,955             0
Total          $4,188,944       $84,977




                3
